<html>
<title> - REVIEW OF THE FY 2017 FOREIGN ASSISTANCE BUDGET: ALIGNING INTERESTS, ENSURING EFFECTIVENESS AND TRANSPARENCY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                REVIEW OF THE FY 2017 FOREIGN ASSISTANCE
                  BUDGET: ALIGNING INTERESTS, ENSURING
                     EFFECTIVENESS AND TRANSPARENCY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-169

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
99-467PDF                         WASHINGTON : 2016                        
                                                                
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  

                  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Gayle Smith, Administrator, U.S. Agency for 
  International Development......................................     4
The Honorable Dana J. Hyde, Chief Executive Officer, Millennium 
  Challenge Corporation..........................................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Gayle Smith: Prepared statement....................     7
The Honorable Dana J. Hyde: Prepared statement...................    17

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    51
Written responses from the Honorable Gayle Smith to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    53
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    69
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    71
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    76
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................    77
  The Honorable Grace Meng, a Representative in Congress from the 
    State of New York............................................    80
Written responses from the Honorable Dana J. Hyde to questions 
  submitted for the record by:
  The Honorable Edward R. Royce..................................    82
  The Honorable Ted Poe..........................................    84
  The Honorable William Keating..................................    88

 
                     REVIEW OF THE FY 2017 FOREIGN
                      ASSISTANCE BUDGET: ALIGNING
                   INTERESTS, ENSURING EFFECTIVENESS
                            AND TRANSPARENCY

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today--we will have all the members take their seats--today 
we are going to review the U.S. Agency for International 
Development and Millennium Challenge Corporation.
    From countering the threat of ISIS to combating pandemic 
diseases, foreign assistance can advance our national security, 
and it does it at a modest price. It is important to ensure 
that all of these investments though, no matter their size, 
that they are all efficient, that they are all effective. And 
the ultimate objective here must be to see countries graduate 
over time from aid.
    Economic growth is the foundation upon which all of our 
development programs should be built: From expanding access to 
energy and clean water, to improving food security, 
strengthening health systems, expanding access to capital, 
advancing property rights--and that means ending land 
grabbing--and empowering women to participate freely in civic 
and economic activity. Market-based economic growth is the key 
to ending extreme poverty and it is key to advancing, frankly, 
U.S. interests.
    In this sense, the Millennium Challenge Corporation is on 
the right track. By picking poor but relatively well-governed 
countries to partner with, and by pushing transparency and 
pushing accountability, MCC is putting countries on the path 
toward graduation. MCC is again requesting the authority to 
enter into ``concurrent compacts.'' And they do this to boost 
trade regionally. I am pleased to be backing this initiative, 
along with Congresswoman Karen Bass from Los Angeles.
    However, MCC must stay true to its mission. The reality is 
that its commitment to selectivity and accountability--
principles which we legislated here in Congress--is constantly 
being tested. I just returned from Tanzania, where that 
government's commitment to democracy is being tested. It is 
being tested by rising levels of corruption in Tanzania, by 
constraints on freedom of expression, and by a cavalier 
attitude with respect to the fixing of elections in Zanzibar. A 
second MCC compact with Tanzania is not supportable under these 
conditions.
    The Agency for International Development also is being put 
to the test. From ``ghost schools'' to abandoned irrigation 
projects and hundreds of millions of U.S. taxpayer dollars 
exposed to waste, fraud, and abuse in Afghanistan and Pakistan. 
Presidential initiatives are diverting critical resources away 
from economic growth. Strategic planning is weak. We need 
fundamental changes there in Afghanistan and Pakistan.
    To its credit, USAID has been working to reform. In many 
ways it is putting MCC principles in practice. The agency is 
seeking to focus more on results and innovation, while tapping 
the expertise and capital of the private sector. It has been 
helped by Congress' transparency push, including Mr. Poe's 
Foreign Assistance Transparency and Accountability Act, which 
needs to pass the Senate.
    USAID is the global leader in humanitarian assistance and 
disaster relief. From the devastating earthquake in Nepal, to 
the deadly Ebola epidemic, to the prolonged refugee crisis in 
Syria, USAID is most often the first to respond. When lives are 
at stake, flexibility can be essential. In the Philippines, I 
saw first-hand Typhoon Haiyan's devastation there. USAID knew 
it would take 3 weeks for U.S. food aid stored in Sri Lanka to 
arrive--12 weeks if they had to ship food from the United 
States--so they bought food locally. And because they did, they 
saved lives there.
    The administration has rightly renewed its request to 
``untie'' a quarter of the Food for Peace budget from costly, 
outdated, and inefficient U.S. purchase and shipping 
requirements that would cost those 4 weeks in a disaster 
situation like that hurricane. I will continue working with the 
administration and my colleagues to see that our food aid 
reaches more people in less time. Again, this is about saving 
more lives.
    New technologies--from vaccines to mobile banking--have 
accelerated advances in global health, food security, and 
development finance. USAID and MCC must keep pace by 
modernizing their work force, by embracing innovation, and 
partnering with the private sector. I look forward to working 
with Administrator Smith and Ms. Hyde to address these 
challenges over the coming year.
    Mr. Engel will be joining us late, so I am going to 
recognize Mr. Sherman of California for any opening statement 
he might wish to make.
    Mr. Sherman. Thank you, Mr. Chairman. And I will yield a 
minute to any other Democrat on this side that has something to 
say, in part out of my generosity and in part because I don't 
have a prepared opening statement capable of filling the time.
    Congress can play an important role in foreign affairs by 
providing adequate funds and providing oversight. This is the 
most important work I think the Federal Government does because 
it not only helps the poorest in the world and the most unfree 
in the world, but it is the best investment we can make dollar 
for dollar in American security. In fact, we spend roughly \1/
5\ of 1 percent of our gross domestic product aiding and 
providing development assistance to the world's poor.
    When you poll Americans, they say that perhaps we spend 10, 
25, or even 50 percent of the Federal budget rather than the 1 
percent of the Federal budget, \1/5\ percent of our GDP that we 
actually spend. Perhaps we should have a national referendum 
limiting total foreign aid to no more than 5 percent of the 
Federal budget. I see at least two people in this room that 
would be happy with that as a target figure.
    When you look at our military budget and combine it with 
veterans' assistance and intelligence, you see that we spend an 
awful lot on our national security, roughly 5 percent of our 
GDP. And that doesn't count the most significant cost, and that 
is the cost in blood when we do have to deploy our best forces 
into harm's way.
    I would want to identify two regions of the world in which 
I take a particular interest. Our aid to Armenia has helped it 
alleviate the effect of the blockade imposed on Armenia by 
Turkey and Azerbaijan. We have, and should have, a robust 
package for the country of Georgia because part of its 
territory is still occupied by Russia and it faces significant 
challenges. And I hope that the region of Samtskhe-Javakhet, I 
guess it is abbreviated just Javakhet, in Southern Georgia 
would be particularly aided as part of that process since it 
has been left out in the past.
    And, of course, U.S. aid to Nagorno-Karabakh helps that 
critical and beleaguered area and people very much in need. We 
provide demining assistance. We ought to be doing more.
    As to Pakistan, there are different regions. And Pakistan 
is so complicated already if you look at the whole country, but 
you do have to look at the individual regions. And in the 
south, the provinces of Balochistan and Sindh have more than 50 
million people. The people of Sindh have I think--I won't quite 
say but by a clear majority rejected extremism. I know that we 
have spent $155 million on the Sindhi Basic Education Program, 
but the Inspector General found some problems. I am told that 
those problems have been remedied, or at least all the I.G.'s 
suggestions have been implemented. I look forward to asking 
questions about that.
    And I will look to see whether, yes, Mr. Meeks would have 
some opening statements. I yield to him.
    Mr. Meeks. Thank you, Mr. Chairman.
    I can't think of a more important time in our history than 
what we are doing right now with reference to USAID or the 
Millennium Challenge and how important it is. When I think of, 
for example, capacity building, it is something that can make 
the difference. When we talk about eradicating poverty, if we 
can build capacity so individuals can have the ability to 
create jobs and to participate in the 21st Century, it makes it 
safer and this whole globe much more secure.
    When I think about the issues that are before us, and the 
issues that we have to deal with on a global scope because the 
two oceans no longer just protects the United States--and as 
Mr. Sherman said, we spend a minuscule amount--and when you 
think about, just look at the agenda, whether it is science and 
innovation, whether it is global health, dealing with women's 
health and malaria or global health security, the tropical 
diseases, whether it is agriculture and the Feed the Future 
initiative or the Global Food Security Act or food aid reforms 
and priorities, whether it is democracy and governance that we 
are dealing with, or global climate change and wildlife 
trafficking, these are tremendous issues that are--and I can go 
on and on and on--but that we need to address. And it makes, 
that affects not only these other countries but it affects us 
directly also. Because if you look at diseases, how fast they 
can travel, if we don't solve things there, they come right 
back here at home.
    So I am excited and we will have some questions on some 
specific regions, but glad that you are here. And I think that 
we are here at a key strategic time.
    Thank you. I yield back.
    Chairman Royce. Thank you, Mr. Meeks.
    This morning we are pleased to be joined by Administrator 
Smith. She was sworn in as the 17th Administrator of USAID this 
past December. Before assuming this position, Administrator 
Smith served as Special Assistant to the President and as 
Senior Director for Development and Democracy at the National 
Security Council. And we welcome her to the committee.
    Prior to becoming Chief Executive Officer of the Millennium 
Challenge Corporation, Dana J. Hyde was the Associate Director 
at the Office of Management and Budget, and previously worked 
at the State Department. So it is good to see you again, Dana.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. And members here will have 5 
calendar days to submit any statements or questions or 
extraneous material for the record.
    So Administrator Gayle Smith. Administrator, I think the 
red button there.

  STATEMENT OF THE HONORABLE GAYLE SMITH, ADMINISTRATOR, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Smith. Now am I on? All right, here we go.
    Thank you, Mr. Chairman, and other members of the committee 
for the opportunity to discuss President Obama's Fiscal Year 
2017 budget for the U.S. Agency for International Development. 
I will say I am also delighted to be here next to my friend and 
colleague, Dana Hyde of the MCC.
    For more than 50 years, USAID has led our nation's efforts 
to advance dignity and prosperity around the world, both as an 
expression of our values and to help build peaceful, open, and 
flourishing partners. This request will help advance that 
important legacy, but our budget line items tell only part of 
the story. In recent years, with vital support from Congress, 
we have acted to make our work more efficient, effective, and 
impactful.
    First, recognizing that foreign assistance is just one 
valuable tool of many, we are making smarter investments with 
our assistance; leveraging private capital and funding from 
other donors to scale our impact; and supporting governments, 
small businesses, and entrepreneurs to mobilize domestic 
resources for development.
    Second, recognizing that development is indeed a 
discipline, we are improving the way we do, and measure, our 
work. Since adopting a new evaluation policy in 2011, the 
agency has averaged 200 external evaluations a year, and our 
data show that more than 90 percent of these evaluations are 
being used to shape our policies, modify existing projects, and 
inform future project design.
    Third, recognizing that USAID can achieve more when we join 
forces with others, we partner with U.S. Government agencies, 
American institutions of higher learning, NGOs, and communities 
of faith. When we can achieve greater efficiency or impact, we 
align goals and strategies with governments and organizations 
all over the world. Engagement with the private sector is now 
fully embedded into the way we do business.
    Finally, recognizing that development solutions are 
manifold, we are pursuing integrated country strategies, hoping 
to build local research capacity, and harnessing science, 
technology, and innovation to accelerate impact faster, 
cheaper, and more sustainably.
    These and other steps I believe are making us more 
accountable, stretching our dollars further, and helping USAID 
to live up to its important role as our lead development 
agency. For less than 1 percent of the Federal budget, the 
President's request will keep us on this path, enabling us to 
meet new challenges, seize emerging opportunities, improve the 
way we do business, and deliver transformational results on 
behalf of the American people.
    Specifically, the request of $22.7 billion will help 
advance progress in the four core pillars of our work: First, 
fostering and sustaining development progress; second, 
preventing, mitigating, and responding to global crises; third, 
mitigating threats to national security and global stability; 
and, fourth, leading in global development, accountability, and 
transparency.
    In countries around the world, USAID works to foster and 
sustain development progress in a range of sectors. In global 
health, we will continue to save lives and build sustainable 
health systems in the countries where we work. We will also 
continue to achieve transformational progress through the U.S. 
Government's major development initiatives, including Feed the 
Future and Power Africa. We will continue to promote quality 
education and increase access to safe water and sanitation.
    Finally, as we know progress is not sustainable without 
open and effective governance in a vibrant civil society, the 
request will enable us to expand our work in democracy, rights, 
and governance. As a global leader in humanitarian response, 
the U.S. is there whenever a disaster hits. Our assistance 
saves lives and protects precious development gains, whether in 
Syria, in South Sudan, or on any of the four continents 
affected by El Nino this year.
    The President's request provides the agility and 
flexibility that is so desperately needed to prevent, mitigate, 
and respond to these global crises.
    We also work in places of strategic importance to U.S. 
foreign policy to mitigate emerging threats and other global 
security challenges. This request supports these critical 
efforts, from planting the seeds of dignity and opportunity 
that offer a counter-narrative to violent extremism, to 
fostering good will toward the United States. We are addressing 
the root causes of insecurity and immigration from Central 
America, strengthening our partners in Eastern Europe and 
Central Asia, and investing in long-term progress in 
Afghanistan.
    Finally, this request will enable USAID to continue to 
lead. It includes support for the Global Development Lab to 
help us spur and integrate innovation across and beyond the 
agency, and for our Bureau for Policy, Planning, and Learning 
to help us continue to drive with evidence. It also supports 
our work to strengthen USAID as an institution and support the 
men and women of this agency who serve their country bravely in 
some of the most challenging of the world's environments.
    It is a great privilege to serve the American people 
alongside the men and women of USAID. I look forward to working 
closely with Congress to continue making USAID more agile, 
accountable, and impactful. Together we are building the agency 
we need and the world deserves, and making investments in a 
better future that will pay dividends for years to come.
    Thank you for this opportunity and for your support. I 
welcome your questions.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       ----------                              

    Chairman Royce. Thank you.
    Ms. Hyde.

   STATEMENT OF THE HONORABLE DANA J. HYDE, CHIEF EXECUTIVE 
           OFFICER, MILLENNIUM CHALLENGE CORPORATION

    Ms. Hyde. Thank you, Chairman Royce, Congressman Sherman, 
and members of the committee.
    I am delighted to be here today with my friend----
    Chairman Royce. I am going to ask you to, again, try that 
red button there.
    Ms. Hyde. It is on.
    Chairman Royce. And then speak into the mic.
    Ms. Hyde. Is this, is this helpful?
    Chairman Royce. Yes. Thanks.
    Ms. Hyde. I am delighted to be here today with my friend 
and fellow----
    Chairman Royce. Just pull that microphone over about four 
inches. There we go.
    Ms. Hyde. How are we doing now?
    Chairman Royce. Perfect.
    Ms. Hyde. We are getting there? There you go.
    Over the past 11 years, MCC's model has proven to be one of 
the most effective ways to transform lives and create 
opportunities in poor countries around the globe. As MCC turns 
the corner on its next decade, the agency is well poised to 
expand its reach and impact.
    In Fiscal Year 2017, MCC is requesting $1 billion to 
partner with impoverished countries in Africa and Asia. This 
funding will directly support compacts with Nepal, Lesotho, and 
the Philippines, as well as threshold programs in Sri Lanka and 
Togo. It will also enable MCC to move forward with critical 
investments in Cote d'Ivoire, Kosovo, and Senegal.
    In each of these countries, MCC's data-driven approach will 
promote sustainable economic growth and reduce poverty in three 
key ways:
    First, MCC achieves some of its most dramatic results 
without spending $1 of taxpayer resources. MCC's scorecard and 
global brand have created a powerful incentive for countries to 
undertake reforms to achieve eligibility, a phenomenon that has 
been labeled ``the MCC effect.'' Countries like Cote d'Ivoire 
have taken forceful steps to change their laws and tackle 
corruption in order to qualify for MCC assistance;
    Second, MCC's projects themselves are designed to tap 
economic potential and spur growth. Nepal, for example, is one 
of the poorest countries in Asia, and still recovering from 
last year's devastating earthquake. But Nepal is also endowed 
with valuable human and natural resources. The flow of water 
from the Himalayas has the potential to power homes across the 
country and supply an energy surplus that Nepal can sell to 
neighbors like India. The Government of Nepal, with MCC's 
support, is taking steps to turn this potential into reality. 
By harnessing its natural waters--through capital-intensive 
infrastructure projects--MCC can help Nepal on the path to 
long-term growth.
    Finally, MCC's programs leave behind more than the sum of 
their individual projects. MCC's commitment to a country-led, 
country-owned model of development prioritizes accountability, 
transparency, and systemic change. Consider MCC's lasting 
impact in the Philippines. After an MCC-designed and funded 
road survived a direct hit from Typhoon Haiyan in 2013, the 
government adopted MCC's resiliency standards and is now 
applying them to highways across the nation.
    With this committee's support, MCC is on a strong footing. 
Last month, we released a 5-year strategy, NEXT. NEXT charts a 
course for expanding impact by doubling down on the core 
strengths of the MCC model. Allow me to share two important 
priorities.
    First, the strategy commits to deepening MCC's leverage of 
the private sector. Increasingly, MCC is using its grant 
assistance to incentivize and support difficult sector reforms 
that help create an enabling environment for private 
investment. At the same time, MCC is expanding its use of 
public-private partnerships. Just over $1 billion in three 
recent compact investments is expected to leverage nearly $5 
billion in private investment.
    Second, it is increasingly apparent that the path to 
economic growth in many of our partner countries lies in 
regional integration. After more than 10 years of successfully 
delivering large, complex infrastructure projects, MCC is well 
positioned to support the hard and soft infrastructure that 
will link markets and customers across borders.
    The President's request asks Congress to provide MCC with 
the authority to make regional investments. You, Mr. Chairman, 
as well as Mr. Engel, Ms. Bass, and others, have been champions 
of this authority, and I am grateful to the committee for 
approving language that would support MCC's regional work.
    In sum, Mr. Chairman, I am proud and humbled to lead an 
agency built on the pillars of evidence-based development. In 
this constrained budget environment, you can be assured that 
MCC's data-driven investments yield results.
    MCC continues to promote American values and catalyze 
growth around the world. And since day one, MCC has held itself 
accountable to Congress and to the American people.
    Thank you very much for your time and attention, and I will 
be happy to answer your questions.
    [The prepared statement of Ms. Hyde follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Ms. Hyde.
    I would just start by mentioning Mr. Chabot's Girls Count 
Act, which we passed through this committee. And now the 
administration is working with the Lets Girls Learn initiative.
    As Mr. Chabot has pointed out in this committee, keeping 
girls in school reduces the likelihood that they are going to 
be made child brides or that they are going to end up 
trafficked or that they are going to be trapped in poverty. And 
so we have the Peace Corps and USAID heavily involved now in 
Lets Girls Learn. Which of the two is leading that effort, if I 
could ask?
    Ms. Smith. We are working on that effort in conjunction 
with other agencies, Let's Girls Learn.
    Chairman Royce. Very good.
    That would be, that would be something to look at in terms 
of how we can, how we can expand the effectiveness.
    Food aid reform, I wanted to talk about the flexibility. I 
raised that in my opening statement. Under what conditions 
would flexible food aid tools, like local and regional 
purchase, vouchers or transfers, be more appropriate than in-
kind assistance? Maybe you could give us an example for the 
committee. It is something that I know the administration is 
looking to advance. This critical need is something I have 
worked on here for some years. And if you would like to amplify 
on the need for that, Administrator?
    Ms. Smith. And if you would like me to also take the Let 
Girls Learn question. Thank you for your support and 
recognition of the impact of keeping girls in school.
    I would note that one of the elements of the request is for 
something called the Let Girls Learn Challenge Fund, which is 
aimed at spurring innovations to not only enroll but keep girls 
in school, because this is one of the other challenges we face.
    On the matter of food aid, we have always benefitted and 
hope to continue to benefit from a mix of commodities and cash. 
Our request for 25 percent flexibility in Food for Peace is 
rooted in the need to have flexibility, given the diverse range 
of crises that we face. In some cases commodities are the best 
answer. In many cases, for reasons that you pointed to in your 
introductory comment, a matter of speed, cost, or the type of 
commodity means that it is far more effective for us to 
purchase locally.
    We have found that this saves time, as you pointed out, but 
it also, we believe, has the impact of saving as many as 
600,000 additional lives.
    Chairman Royce. Very good.
    With the recent elections, of course, in Burma, Burma 
continues to make strives. But despite this progress, treatment 
of the Rohingya Muslims in the Rakhine State is abhorrent. Even 
though we are going to see a new government here take power in 
Burma, I think the animosity toward the Rohingya runs deep 
there. And the administration has highlighted bolstering the 
democratic gains in Burma.
    How are we working to change attitudes there toward the 
Rohingya and affecting the persecution of the Rohingya in 
Burma?
    Ms. Smith. Thank you, Mr. Chairman, for the question. It is 
our belief that as we try to continue promoting democracy in 
Burma, the plight of the Rohingya people is one of the elements 
that needs to be on the table. We are, as you know, providing 
humanitarian assistance. We are about to launch a new program 
that is designed to improve the livelihoods of the Rohingya 
people, both for their benefit but also so that they might be 
more effectively integrated into Burmese society going forward. 
It is an issue we watch very closely and we will continue to 
work.
    Chairman Royce. Thank you.
    I also wanted to just return to the issue of MCC compacts, 
especially years of results, or in regard to what we saw in 
Tanzania in terms of the attempts to fix the election in 
Zanzibar. Now that is going to be re-voted on March 20th. But I 
think there is every reason that we have to use our 
considerable leverage. Where there is clear violation of the 
law and corruption of that kind of magnitude, you have to put 
your foot down and say ``enough.''
    Also, I will just mention besides the situation in Tanzania 
on the attempt to fix that election on the island of Zanzibar, 
we have also got the situation in Peru last week where the 
Peruvian Electoral Court has barred Julio Guzman from next 
month's elections over what they say is a procedural error in 
his party's internal nominating process. Now, this is not an 
issue within his party, it is the opposition, frankly. It is 
Fujumoro, the rival candidate--Fujimori. And with just weeks 
until the first round of votes, Mr. Guzman has been polling 
second to the rival candidate. And now, not by the will of the 
people but by a 3 to 2 vote on this procedural issue, that is 
going to determine I guess who is going to lead Peru.
    I think that decision risks undermining the legitimacy of 
whomever should eventually prevail. And we should be using our 
considerable influence in situations like this where we see 
these attempts to steal elections. We should be engaged in 
that.
    I see, also, we are looking at another compact with the 
Philippines. As you know, we raised this issue of land grabbing 
in Cambodia where the corruption is driven from the top, from 
the central government, and from the Philippines where you have 
local governments involved in the process of land grabbing. And 
I think as we work to identify land grabbing and poor land 
tenure policies that are constraints to economic growth, we 
have to use our considerable leverage as a counterweight here 
to end those practices.
    I have run out of time. So I am going to go to Mr. Engel 
for his opening statement and any questions he may want to 
raise.
    Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. Let me first 
say, Ms. Hyde, your leadership of the MCC has been exemplary. I 
want to just say that for the record.
    And let me say, as you well know, how pleased I am that 
Kosovo is now on track for an MCC compact. That is something we 
have worked for for a long time. And it is just nice to see 
government responding in a way that I believe it should. So 
thank you very, very much.
    Let me ask, Administrator Smith, I understand that you have 
worked at USAID during the Clinton administration. And many 
things obviously have changed since that time. We face 
staggering needs due to conflict and instability, and our 
foreign assistance budget remains constrained, which I think is 
an absolute mistake.
    How is USAID different now than it was when you were up 
there in the Clinton administration? Power Africa and Feed the 
Future, two of the signature development initiatives USAID has 
led in the past 3 years, how do these initiatives represent a 
new and different approach to development?
    Ms. Smith. Well, thank you, Congressman, for the question. 
I think USAID has changed and grown a great deal. I would point 
to a couple of things.
    It has really become a knowledge institution that adapts 
and iterates. If I look at programs around the world and the 
progress that has been made, what I continue to see is an 
agency that, aided by evidence and analysis, is constantly 
improving what it does.
    A second thing I would point to is its ability to leverage 
private capital. There is broad agreement in the development 
community that it takes assistance, private capital, and 
domestic resources. The agency does a terrific job of bringing 
all of these to bear.
    I think that is true in both Feed the Future and Power 
Africa, both of which have the benefit of impacting the lives 
of real people who need electricity, and real farmers who need 
improvements in their lives, but which are also, in the case of 
Feed the Future, for example, linking small-holder farmers to 
markets, improving incomes, while at the same reducing the 
impact of stunting.
    In Power Africa, where we work very closely with the MCC 
and other government agencies, we are able to do two things: 
Again, expand access to electricity on the African continent, 
but also prime the pump of private investment so there is 
greater confidence and greater ability to draw private capital 
to viable energy projects. So I think this ability to invest, 
on the basis of evidence, in sustained outcomes that are really 
transformational, has been the tremendous progress that USAID 
has achieved over the last many years.
    Mr. Engel. Well, thank you.
    Let me ask you another question about the Zika virus. A 
number of my colleagues have suggested that rather than 
appropriate new funding for the Zika virus outbreaks that we 
ought to first expend unobligated Ebola response funds. Can you 
tell me if that is viable? How do you feel about using these 
unobligated Ebola funds to address the Zika virus? And what 
ramifications might we face if we were to shift this 
unobligated Ebola funding toward our Zika response?
    Ms. Smith. Thank you. As Congressman Meeks has pointed out, 
and as I think we all know, we are going to see the spread of 
these kinds of diseases more and more frequently, as we have 
with Ebola and now Zika. We have identified some resources and 
are moving out with $2.5 million on Zika on public information 
campaigns.
    I will tell you honestly as somebody--as we now face the 2-
year anniversary of the start of the Ebola epidemic--who worked 
it every single day for over 14 months, I have some great 
apprehension in spending down unobligated Ebola resources for 
Zika. And I will tell you why.
    These resources, in the first instance, are planned for a 
number of activities that are ongoing; so they are being spent 
down. Those include ensuring that we are prepared for any case 
of Ebola that we see and the threat of a possible outbreak. We 
were extremely lucky that the individual case in Nigeria that 
we saw at the height of the epidemic did not spread further. 
But I want to emphasize that we were lucky. I am very hesitant 
to suggest that we should take the risk of an unmanageable 
outbreak and be unable to respond.
    Second, in the three countries that were affected by the 
epidemic, there is an urgent need to build back their health 
systems but, also, incorporate and sustain their ability to do 
things like lab testing, run burial teams, keep trained 
healthcare workers who can respond again when and if we see 
additional cases.
    Finally, resources are going to what is called the Global 
Health Security Agenda, which is the long-term solution to this 
and Zika, which has to do with building the capacity of our 
partners to prevent, detect, and respond to outbreaks like 
Ebola and Zika.
    Mr. Engel. Thank you. Let me just quickly ask, Ms. Hyde, 
your testimony mentioned the changing landscape of poverty and 
your strategy for the next 5 years. The World Bank's report on 
gross national income provides estimates on global poverty. And 
the report is a good starting place but it doesn't always 
accurately capture where poverty is found around the world.
    So let me ask you, as MCC looks ahead, what are some of the 
ways that you will try to better measure poverty to improve the 
impact of the MCC model and its programs?
    Ms. Hyde. Thank you, Congressman. And thank you for your 
comments on Kosovo. We just had a high level delegation return 
and are delighted with the engagement thus far on our compact.
    Mr. Engel. As am I. Thank you.
    Ms. Hyde. Yes. MCC's 5-year strategy focuses on a number of 
areas. Two I highlighted in my oral statement. First, the deep 
focus on leverage and private sector engagement.
    Second, MCC is working in the reform space. That is, how do 
we incentivize and support governments to undertake really 
challenging reforms in sectors that can enable private 
investment and other donor investment?
    With respect to poverty, MCC only works in poor countries. 
I believe MCC should only work in poor countries. But what we 
know is that over the last decade there have been a number of 
shifts in poverty. Right now, that candidate pool is assessed 
based on per capita income. And the challenge with average 
incomes, GNI, which is the World Bank measure, is that in cases 
where there is extreme inequality, or in countries where there 
is concentrated natural mineral wealth, it really doesn't 
address what the percentage of poverty is and where it exists 
in those countries.
    MCC is a data-based organization. We are undertaking a 
thorough examination of other sources of poverty data and how 
we might better capture that. And we look forward to working 
with the committee in coming forward this summer with some 
ideas and proposals with respect to that.
    Mr. Engel. Thank you. And, again, thanks to both of you for 
extraordinary work. We really appreciate it. Thank you.
    Chairman Royce. Thank you, Mr. Engel.
    Mr. Dana Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much. And I also thank you 
for your service. You work really hard and you try to keep us 
informed. You have had some meetings with me as well, and I 
appreciate that.
    Just some notes of concern, and that is when you talk about 
land grabbing, the chairman mentioned land grabbing in the 
Philippines and elsewhere, it is not just land grabbing but 
there are also claims, as we have talked about, American 
citizens, their projects, their property, their industries have 
been confiscated by various governments throughout the world. 
The one, of course, I have a constituent directly involved in 
Ethiopia that has taken possession of a very important industry 
in that country and will not give the property back. And I 
would hope, as we have talked, that in countries that are 
themselves, their government are taking property or if they are 
acquiescing to land grabbing that we should not be using the 
Millennium Challenge account to subsidize those governments.
    I would just say that we do have a little problem in our 
own country. It is called eminent domain. And just ask Mr. 
Trump; he knows all about that and utilizing it for his 
benefits. And we have to make sure that we are following our 
own principles as well when I suggest that.
    One last note and I am going to then yield to my friend Mr. 
Smith from New Jersey, and that is I really believe that we 
should be focusing on humane and humanitarian crises rather 
than development. I don't think development is something that 
the American people are responsible for developing other 
countries. We are responsible as human beings, when other human 
beings are in danger and natural catastrophes, or even 
situations where war has come in and a lot of people are, lives 
are at risk, yes, we must help people out. But developing their 
country, helping them develop their country, I don't 
necessarily think we can afford that anymore.
    And with that said, I yield the rest of my time to Mr. 
Smith.
    Mr. Smith of New Jersey. Thanks for yielding. Thank you.
    Administrator Smith, thank you for your work, especially 
with the Enough campaign which I think is extraordinary, 
particularly the work in Sudan. Let me just ask you a couple of 
very quick questions.
    The End Neglected Tropical Disease Act, my hope is that the 
administration can support this bipartisan legislation. We have 
had seven hearings in my subcommittee on these devastating 
diseases, of which Zika virus is one, Ebola another. Can you 
support the legislation?
    Secondly, yesterday the House passed two resolutions, one 
calling the horrific murdering of Christians a genocide in 
Syria, and a second bipartisan resolution calling for the 
establishment of an independent ad hoc Syrian war crimes 
tribunal. My hope is that everyone who cares about the 
humanitarian impact that war has, particularly when it is a 
genocide, could weigh in on the administration, other parts of 
it, to make a determination. The President has until Thursday. 
Our hope is that he will do both. They go tandem.
    Article 6 of the Genocide Convention, as we all know, makes 
very, very clear that the prosecution of individuals who have 
committed genocide is a treaty obligation under the Genocide 
Convention. And an international tribunal is a venue that is 
well adept to that.
    And, finally, Ms. Hyde, why is there no role for faith-
based organizations in the selection criteria? I know Yale, 
Columbia, UNESCO, World Bank all have input. Faith-based groups 
are the most efficacious groups on the ground in delivering 
humanitarian aid as well as developmental aid. Why aren't they 
included in that?
    Thank you.
    Ms. Smith. Thank you, Congressman. And thank you for your 
particular recognition of the work on neglected tropical 
diseases. As we have discussed, I think the gains there have 
been extraordinary: If you look at the delivery of 287 million 
treatments over the last 10 years, and an annual $2 billion 
leveraged in contributions.
    One of the things we are doing is looking outward at what 
the plan should be over the next 10 years, because I think that 
if we remain on a steady course we can get neglected and 
eradicated tropical diseases in many cases.
    Thank you for your comments on the resolutions which I have 
noted and will duly share. The plight of Christians, of 
minorities throughout the Middle East has been something that 
has been of great attention to our agency. We strive to ensure 
that humanitarian assistance is delivered to all. Also, through 
our own faith-based office, we have received many delegations 
from these groups and others, and we intend to continue.
    Thank you.
    Ms. Hyde. Thank you, Congressman, for the question.
    With respect to the indicators themselves, we would be 
happy to take a look if there is a specific indicator that 
might be appropriate in terms of measuring growth. You know, 
most of the indicators that we are using are the IMF, the IFC, 
the World Bank and these kinds of sources. But if there is some 
gap that we are missing----
    Mr. Smith of New Jersey. Well, you know that there are NGOs 
like Freedom House and others.
    Ms. Hyde. Freedom House and others, yes.
    Mr. Smith of New Jersey. And the faith-based groups, 
Catholic Relief Services----
    Ms. Hyde. Yes.
    Mr. Smith of New Jersey [continuing]. Samaritan's Purse, 
they are absolutely essential.
    Ms. Hyde. Yes. No, I couldn't agree----
    Mr. Smith of New Jersey. And they should be contributing, I 
would say, to that criteria.
    Ms. Hyde. Couldn't agree more. So to the extent it may be 
the inclusion of a new indicator. I will say that with respect 
to our designing investments and our civil society outreach, 
faith-based groups are absolutely part of where we reach out to 
country by country. In fact, our work with Niger this year will 
prove as a good example of that.
    But we are always seeking to see if there is a data source 
that we are missing that could be appropriate. And I would be 
happy to follow up with you on that.
    Mr. Smith of New Jersey. Yes, let's do that.
    Ms. Hyde. Okay.
    Mr. Smith of New Jersey. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go now to Mr. Brad Sherman. 
And without objection, I am going to yield a couple of minutes 
to Mr. Sherman to--you had some remarks on the House Floor last 
night that I think in the interest of the committee might be 
well served if I just yield to you a few minutes right now, Mr. 
Sherman, to reiterate your observations about the Senate and 
the House.
    Mr. Sherman. Thank you, Mr. Chairman. I will give you a 1-
minute report on our consideration last night of S. 2426. Some 
in this committee will have noticed that that bill, that Senate 
bill we considered last night was identical to H.R. 1853, 
written by Mr. Salmon and passed by this committee. And so I 
will report to you on that coincidence by quoting the remarks I 
made on the Floor last night:

          ``The House passed H.R. 1853 overwhelmingly last 
        year. We sent the bill to the Senate. Instead of acting 
        on the House bill, the Senate Xeroxed our bill, put 
        their own name on it, and sent it back here. The 
        decision to send the bill back to us with their own 
        name on it is a trend that we are seeing in the foreign 
        affairs area, a trend that I do not condemn because it 
        allows us here on the House Floor to consider well-
        drafted House bills not once but twice, and to vote on 
        them twice, and to emphasize to the administration how 
        serious we are about them being enforced.
          ``I appreciate the Senate copying our work, since 
        imitation is the most sincere form of flattery.''

    Anyway, that is the report from last night.
    Now I want to address the witnesses. First, as I want to 
associate myself with the chairman's remarks on the Rohingya 
and note again the importance of fighting the Zika virus and 
other, other infectious diseases. And this is part of our 
national security, since these diseases which we call tropical 
are coming our way, whether that is for a host of reasons.
    As to Southern Pakistan, which I mentioned in the opening 
statement, I want to commend you from one--from, let me see, 
the construction of 26 schools that you have started, both 
girls' schools and primary schools, training 113 supervisors. 
And I wonder if you could comment, Madam Administrator, on your 
work in Sindh and Balochistan?
    Ms. Smith. Yes, sir. And thank you for your comment again 
on Zika. I think it is extremely important that we all 
recognize that this is a new and modern threat that is going to 
continue to challenge us.
    In Sindh Province--and thank you for your recognition of 
the work--we have, as I think you know, a comprehensive 
development assistance portfolio that includes repairing power 
stations, developing a workforce program targeting 
disadvantaged youth, increasing enrollment in schools, and 
improving infrastructure, and technical capacity to deliver 
quality health services.
    You have pointed to some of the results we have seen. I 
would also like to point out the Health Infrastructure 
Improvement Program which trains over 1,300 healthcare workers 
and provides care, importantly for 140,000 women annually.
    Mr. Sherman. Thank you.
    I have been advocating for direct aid to Nagorno-Karabakh 
since 1997. It is an important investment we make in peace in 
that region and in support of a negotiated and democratic 
solution. Recently, aid direct to Nagorno-Karabakh has dropped 
to $1.5 million per year, principally directed at demining.
    Can you explain why we are not doing more, given the fact 
that this area is beleaguered and in need of help?
    Ms. Smith. Thank you for that. And as you know, we are 
operating in an environment that forces some tough choices. I 
think the good news is that we have seen in the Fiscal Year 
2017 request, increases across the board for that region.
    In addition to demining, we have also supported 
humanitarian assistance. Should there be a recurrent need for 
that we are always, as in any part of the world, willing to 
take another look at that.
    Mr. Sherman. I will look forward to talking to you and 
showing you that that need has already occurred.
    Ms. Smith. Absolutely. I would love to do that.
    Mr. Sherman. And obviously a lot of countries are seeing 
refugees from Syria. And we are helping Turkey. That is well 
publicized. Many of the Christian refugees are making their way 
to Armenia, especially being ethnic Armenians. Are we providing 
aid to the Government of Armenia to take care of those 
refugees?
    Ms. Smith. We are providing some assistance to help with 
refugees who have migrated to parts of Europe, as well as 
trying to concentrate our assistance both for people inside 
Syria and those in the surrounding regions. In addition, the 
State Department, through PRM, is providing assistance to those 
people.
    Mr. Sherman. You wouldn't happen to know how much is going 
to Armenia for assistance?
    Ms. Smith. I can get that specific answer for you.
    Mr. Sherman. I look forward to it.
    Ms. Smith. I would be happy to provide it in writing or in 
person.
    [The information referred to follows:]
 Written Response Received from the Honorable Gayle Smith to Question 
         Asked During the Hearing by the Honorable Brad Sherman
    The United States provides support to Armenia for refugee 
assistance through the United Nations High Commissioner for Refugees 
(UNHCR). UNHCR has provided approximately $20 million for Armenia since 
2012. UNHCR estimates that there are approximately 15,690 refugees in 
Armenia, as of June 2015; as the United States provides roughly 35 
percent of UNHCR funds, that means the United States has provided 
approximately $7 million to Armenia in refugee assistance, which comes 
to approximately $446 per refugee.

    Mr. Sherman. Thank you.
    I want to again commend you on your work. And yield back 
the rest of my time.
    Mr. Chabot [presiding]. The gentleman yields back. I now 
recognize myself for 5 minutes.
    And, again as the other members have said, we welcome you 
here and your testimony. Let me ask you this, Madam 
Administrator, how much taxpayer money is the President 
requesting for the Global Climate Change Initiative?
    Ms. Smith. Well----
    Mr. Chabot. Could you turn your mic on, please.
    Ms. Smith. Sorry.
    Mr. Chabot. That is all right.
    Ms. Smith. I can get you that. For USAID specific funding I 
believe it is in the range of $300 million.
    Mr. Chabot. Okay.
    Ms. Smith. I have that right here. I will look it up for 
you.
    Mr. Chabot. All right. Let me, correct me if I am mistaken 
here, but I have been led to believe that it is $483.9 million?
    Ms. Smith. I am happy to look at that figure specifically.
 Written Response Received from the Honorable Gayle Smith to Question 
         Asked During the Hearing by the Honorable Steve Chabot
    The USAID FY 2017 request for Global Climate Change funding is 
$352.2 million. The State Department request is $631.7 million, which 
includes $500 million for the State Green Climate Fund.

    Mr. Chabot. Okay. Well, for the purpose of my next 
questions, if you will assume that that is the number, unless 
you have one of your folks find out it is different, in which 
case I am happy to be corrected. I see you are getting handed a 
piece of paper there now, so.
    Ms. Smith. I am. Three fifty-two.
    Mr. Chabot. $352 million, so $\1/3\ billion approximately.
    Ms. Smith. Yes.
    Mr. Chabot. All right. Well, the numbers that our crack 
staff had supplied to us was $483 million. But in Washington, 
$150 million that we are not clear about some people might 
think that that is not a big deal. I think it is a pretty big 
deal. But let's, let's maybe by the end of the day we can come 
up with the exact figure. But let's assume it is somewhere 
between $352 million and $483.9 million.
    But that doesn't change the focus of my next couple of 
questions, which is this: This nearly $\1/3\ billion or $\1/2\ 
billion of the hard-working American people's tax dollars is 
pursuant to commitments that were made at last year's Paris 
Climate Conference; is that correct?
    Ms. Smith. Our work--and I can confirm it is $352 million. 
We would be happy to go over specific numbers with you or your 
staff. But those figures reflect----
    Mr. Chabot. But that is not my question now about the 
amount.
    Ms. Smith. Sure.
    Mr. Chabot. It was pursuant to the President's commitment 
at the Paris Climate Conference last year?
    Ms. Smith. Actually, the work that USAID does in this area 
we have been doing for many years.
    Mr. Chabot. It has nothing to do with the Paris Climate 
Conference?
    Ms. Smith. Part of our Paris commitment included----
    Mr. Chabot. Some amount of the money is pursuant to the 
President's commitment last year; is that correct?
    Ms. Smith. Yes, sir, I believe it is.
    Mr. Chabot. Okay, thank you.
    And how much input did the duly-elected representatives of 
the American people, which would be the House of 
Representatives and the Senate, have in making those particular 
commitments, irregardless of what the commitments might have 
been previous to that, but how much involvement was there by 
the folks here, the elected representatives of the American 
people in that commitment at the Paris Global Warming 
Conference?
    Ms. Smith. Congressman, I wonder if perhaps you are 
referring to the Green Climate Fund?
    Mr. Chabot. Do you remember when they had the pretty 
horrible attacks on Paris, the terrorist attacks last----
    Ms. Smith. Yes, sir.
    Mr. Chabot [continuing]. Last year?
    Around that time, shortly after that there was this Global 
Climate Conference in Paris, wasn't there?
    Ms. Smith. Yes.
    Mr. Chabot. Okay. That is what I am referring to.
    Ms. Smith. Yes.
    Mr. Chabot. Okay. The President commits a whole lot of 
money. Did he seek, did he get approval from Congress on that? 
It is a pretty simple question I think.
    Ms. Smith. Yes. And if I may, two quick points on that. If 
indeed you are referring to the Green Climate Fund, that is 
something that the State Department has determined it has the 
authorization to make the grant that was made.
    From the perspective of USAID we have----
    Mr. Chabot. Let me go on with my time. I have only got a 
minute left here.
    Ms. Smith. Okay.
    Mr. Chabot. You can correct me for the record later on if 
you want to, but I don't think there was a whole lot, we 
certainly didn't vote on approving what the President committed 
of the hard-working American people's dollars.
    And there is at least one Senator that apparently believes 
that so-called climate change deniers--and I would argue that 
that language itself is reprehensible because it infers that 
people that don't buy in completely to the fact that we ought 
to be spending huge amounts of money when it could be 
considerable loss of jobs and taxpayer money spent, and it kind 
of compares deniers of the Holocaust to people that are 
skeptical about climate change--but in any event there is at 
least one Senator who thinks that the Justice Department and 
the FBI should be pursuing legal action against so-called 
climate deniers.
    So my question would be--and I am almost out of time--but 
my question is am I or anybody else who might be skeptical 
about huge amounts of money, whether it is $350 million or 
whether it is $450 million that are going toward these types of 
initiatives, are we in some legal jeopardy for expressing some 
concern about the use of the American people's tax dollars in 
that way?
    Ms. Smith. Sir, it is my considered view that expressing 
your views and opinions are absolutely your right and 
prerogative.
    Mr. Chabot. Thank you. I appreciate that greatly. Thanks 
for your testimony.
    My time has expired. The gentleman from New York, Mr. 
Meeks, is recognized for 5 minutes.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me, you know I don't think I did this initially, let me 
say I think this is the first time that you, Madam 
Administrator, have been here as the new Administrator for the 
USAID. Let me congratulate you on being confirmed and in your 
new job. I had the pleasure of working with you in the other, 
in the Clinton administration and others, particularly on 
Africa. And know I look forward to working with you in the 
future. And congratulations and welcome.
    Let me just first ask when talking about Trade Africa, you 
know we have worked on Africa together, and I have been a 
promoter of increased regional trade in Africa and in increased 
trade between Africa and the United States. And I know that 
trade, the Trade Africa initiative, is a new approach, a multi-
agency approach with the potential to significantly assist in 
expanding U.S. trade.
    And the initiative, or a key goal of the initiative, is to 
build U.S.-African trade and investment hubs in three African 
regions which are supposed to function as a resource both for 
African exporters and U.S. firms. So can you tell us what the 
status is of the three hubs and what are USAID's main 
activities in current and prospective challenges under Trade 
Africa?
    Ms. Smith. Thank you for your longstanding support of Trade 
Africa, even before it was named.
    We have the three hubs, and those are doing a number of 
things. One is working with potential partners who under the 
terms of AGOA want to increase trade with the United States.
    Second is to train and work with entrepreneurs, small 
businesses, and others, including with a special emphasis on 
women in terms of the value chains that we support.
    And the third is supporting efforts for regional 
integration, which is very important as you know. The size of 
many of these economies in each of the three regions are very 
small, and their ability to trade both with each other and as 
regional trading blocs will be significantly enhanced by their 
ability to integrate. So there is a lot of work on the policy 
and reform side.
    Mr. Meeks. And let me ask also, are there any other trade 
and investment--focused activities that USAID is supporting in 
Africa? Let me ask that. And then----
    Ms. Smith. Yes.
    Mr. Meeks. Go ahead.
    Ms. Smith. No, go ahead.
    Mr. Meeks. Go ahead, because I am going to change to a 
different country in the second question.
    Ms. Smith. Yes, there are efforts underway to work on trade 
facilitation as part of the WTO agreement, which I think you 
have followed, and to help countries as they work toward WTO 
accession.
    Mr. Meeks. And let me ask now because I am taking the rest 
of my time on this, President Obama has proposed $450 million 
in Fiscal Year 2017 for assistance for Colombia in what we are 
calling Peace Colombia. I was a huge supporter of Plan Colombia 
and believed that supporting peace in Colombia is equally 
crucial. But I also know that the region that was most affected 
was the African-Colombian and indigenous communities in 
Colombia have been disproportionately affected by violence in 
the nation's long-lasting conflict.
    So my question is, how do you envision U.S. assistance to 
Colombia helping those communities specifically? And which 
USAID programs do you envision plussing up? And which program 
do you think that you can envision phasing out?
    Ms. Smith. Thank you for the question. Our view in this 
next phase of the transition in Colombia is that integration is 
going to be absolutely key, as is equity between and amongst 
people who have been divided by a long conflict, and that 
includes the Afro-Colombian community.
    You will be pleased to note, I think, that in the Fiscal 
Year 2017 request we include 60--a $61-million program targeted 
just for those communities, aimed at building their capacity, 
including for self-governance, to engage in public debate and 
dialogue with the government, and build capacity and resources 
among those communities so that we might see, as Colombia does 
enter this next phase, greater equity than we have seen 
historically.
    Mr. Meeks. Thank you. Because that is absolutely critical, 
you know, as I believe our peace process was. As members that 
were falling into the FARC start coming back, that is the area 
where they go. And we want to make sure that those who have 
suffered and been displaced for a long period of time that they 
are considered in this process. And a lot of the aid and 
capacity-building dollars are there because there is great 
opportunity there from whether it was the Colombia Trade 
Agreement or other opportunities that present themselves there.
    Ms. Smith. I would agree with you, and that is very much 
what our assistance is aimed to do, as well as our dialogue 
with the Government of Colombia.
    Mr. Meeks. Thank you. And I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from South Carolina, Mr. Duncan, is 
recognized for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    And let me just say, I think USAID is for the most part a 
very effective tool in the foreign policy realm. It transcends 
administrations. It has been around a long time. And I 
appreciate its efforts.
    And so, Administrator Smith, I would like to address some 
questions to you. But the things I know about USAID, things 
like ongoing efforts in Iquitos, Peru, to combat dengue and now 
Zika, research on mosquitos and how those two fevers and 
viruses are transmitted. And I support efforts such as 
Electrify Africa because I believe that we can improve the 
quality of lives of folks in Africa and, really, all across the 
Third World with simple things that electricity and energy 
provides: And that is to keep food from spoiling; to be able to 
heat and cool homes and keep the mosquitos out by being able to 
close windows; to being able to improve quality of air by not 
burning something in the house; being able to cook food over 
something other than coal or wood. These are simple things.
    Being able to read after the sun goes down, whether reading 
to your parents or reading yourself, or there are just so many 
things we take for granted that I think, you know, electrifying 
efforts, whether it is Africa or anywhere in the Third World 
can benefit. So these are things I support.
    But I went to the Summit of the Americas last year. I was 
Chairman of the Western Hemisphere Subcommittee. And at the 
summit had a chance to have a conversation with President 
Obama. And we were talking about the money for the Northern 
Triangle countries for the unaccompanied children. I told the 
President at the time, I said, I am somebody on my side of the 
aisle that probably would surprise you in my support for giving 
money to those Northern Triangle countries to help combat this 
because I believe it is the issues in those countries that are 
causing the parents to send their children north, not 
necessarily the carrots that we are dangling here in this 
country. I probably differ with him on the amount, and I told 
him that.
    But I said, at the time I said, Mr. President, we have to 
make sure that there is some accountability for this money that 
we do give to these countries. And he said at the time, which 
kind of caught me off guard, he said, you are absolutely right, 
Congressman. Too much money has gone missing in the past.
    Which was an affirmation, I think, that money has been 
skimmed by rogue dictators or whoever. So we need to make sure 
that we get the money to where the rubber meets the road and 
make it effective. And I think the President acknowledged that.
    So playing on his words to me during that conversation, my 
question to you is how do we address accountability, especially 
in Third World countries, where we see folks like Taylor in 
Liberia or others that have taken a lot of foreign aid and used 
it for ill-gotten gains? So how are you addressing 
accountability? Understanding that everyone is acknowledging 
that this has happened in the past, these are taxpayer dollars. 
This is not off a money tree in the back yard. Hard-working 
Americans pay taxes and they want to make sure that their tax 
dollars are spent effectively by any administration.
    So, Ms. Smith, if you could just address what you are doing 
about accountability, I would appreciate it?
    Ms. Smith. Thank you for your support of our work. I think 
part of the deal we make with the American people, in addition 
to our obligation and my obligation to ensure that taxpayers' 
dollars are spent effectively, is to show results and be sure 
that these are worthy investments. That has everything to do 
with accountability and transparency, which we approach in a 
number of ways.
    First transparency, is ensuring that we have clarity and 
visibility on the dollars spent, and that we increasingly 
obligate our partners, including governments, to be transparent 
with their own citizens and with us about the expenditure of 
those dollars.
    Second is building the capacity for governments to set up, 
whether it is anti-corruption commissions, or to put in place 
the regulations and laws that are necessary to prevent 
corruption, while at the same time supporting civil society.
    Mr. Duncan. Is that a requirement for receiving help, that 
they set up some sort of anti-corruption policy?
    Ms. Smith. There are. In the case of the Northern Triangle 
countries some of our assistance over the last few years has 
gone into building the capacity of high-impact courts, local 
anti-corruption institutions, number one. We also support civil 
society organizations because part of the way you get 
accountability is when citizens ask where the money is and 
create a demand signal. So that is another way we do it.
    I think this has become--when I was asked a question of 
what has really changed to date, I think the incorporation--and 
I am sure my colleague will speak to this--but I think across 
the board on foreign assistance dollars this emphasis on 
building capacity to fight corruption and building capacity of 
civil society to hold governments accountable and demanding 
degrees of transparency that were not required in the past, 
quite frankly, in some of the examples to which you refer is a 
huge priority for us.
    Mr. Duncan. Right. Well, I appreciate that. I appreciate 
your efforts on transparency, accountability. When we see 
things like Afghanistan where a lot of money has gone for 
projects that weren't built and then taken by others, it is 
important because these are our taxpayer dollars.
    I appreciate it.
    Ms. Smith. Thank you, sir.
    Mr. Duncan. And I yield back, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman yields back. The 
gentleman's time has expired.
    The gentlelady from California, Ms. Bass, is recognized for 
5 minutes.
    Ms. Bass. Thank you, Mr. Chair.
    Let me begin by commending both of you for your work and 
your leadership over both agencies over these last few years. I 
certainly have enjoyed working with both of you. And, Madam 
Administrator, with your time in the White House and now at 
USAID I want to congratulate you.
    I thought I would try to get all my questions out at once. 
And then the rest of the time you could answer them. I do want 
to thank you for you reluctance to shift Ebola funding to Zika. 
I think it is just so important that we not do that, especially 
because we know that we need to strengthen the health 
infrastructure in the three countries. And it is nice that the 
urgency has passed, but we certainly don't want to change the 
money.
    So the one question on food aid reform, I wanted to know 
what additional reforms you believe are needed, and what 
constraints in the current system prevent U.S. food aid from 
reaching more people? That is one question.
    And then what are we doing now to address the drought in 
Southern Africa and Ethiopia?
    You know, when I was looking at this chart on USAID 
appropriations, if I understand it correctly it looks as though 
there is no funding request for the Democracy Fund. And I 
wanted to know if you could clarify that because it says zero. 
It says $62 million in 2016 and zero in 2017; so maybe you 
could clarify that?
    And then for MCC, I wanted to know, Ms. Hyde, where you see 
doing regional compacts in Africa?
    And then a second MCC question is about the private sector 
role, and so I wanted to know what MCC is doing to mobilize 
private capital in compact countries? And to what extent--and 
hopefully this is where we might work together in the future--
has MCC been able to leverage the participation of U.S. private 
companies in its activities? So how is that?
    Ms. Hyde. Thank you, Congresswoman, and thank you for your 
leadership overall, but in particular with respect to the 
Regional Compact Authority that you and I have spoken about a 
number of times.
    So as I mentioned, we know that in 2016 we live in a global 
economy and that regional integration is key to helping markets 
develop. This is particularly true in Africa where you have 54 
disparate countries, many small, without economies of scale. 
Over the decade, 65 percent of MCC's portfolio has been 
invested in Africa. The MCC brand is very strong there. We have 
had bilateral compacts, a number there.
    And while I think regional compacts could be successful in 
many parts of the world, I think Africa is particularly ripe 
for one. In particular, I would say West Africa, where MCC's 
penetration is quite strong. We see a number of opportunities 
either in power, to work across borders there in transmission 
and distribution as well, or in transportation.
    And, you know, I was struck by, I believe that the 
political will is there to help and that they are looking for 
capacity and assistance particularly in infrastructure. The two 
most recent selections in Africa from the board meeting in 
December are Cote d'Ivoire and Senegal. We are still seeking 
the authority. At the same time, we are looking to do the due 
diligence to see what are actually the opportunities that exist 
in Senegal, which is really a regional leader, and Cote 
d'Ivoire, as well as keeping our eyes open elsewhere.
    With respect to the private sector, MCC has evolved in a 
way that I think has a unique value proposition for the private 
sector. We are in two dozen countries around the globe. We are 
there for a 5-year period of time. We have a platform that is 
usually in a sector where there is interest in private capital: 
Transportation as well as energy as well as irrigation. And 
what we are doing is both using our investments to see where we 
can invest in public goods, which is often, for example in 
energy, the utilities.
    Ms. Bass. Excuse me. Mr. Chair, I might run out of time. If 
you wouldn't mind----
    Ms. Hyde. Yes, yes, yes.
    Ms. Bass [continuing]. Giving a minute.
    Mr. Chabot. Go right ahead. Proceed.
    Ms. Hyde. And to bring in American companies, I would cite 
Ghana as an example of this, where there are a number of 
companies, GE and others, who are going to work in generation 
in Ghana, while MCC will be investing in the utility to make 
the sector more viable. And now I will stop.
    Ms. Bass. Great. One, two, three?
    Ms. Smith. Thank you, Congresswoman.
    Our request on food aid is for the 25 percent, which we 
think will give us the flexibility to have the right mix in the 
future discount between commodities and cash.
    Thank you for raising El Nino. We are responding in both 
Southern Africa and Ethiopia. In Ethiopia, as you may know, we 
have recently launched a Disaster Assistance Response Team, or 
DART. Part of the reason to move so early is that we believe--
as do other donors--that if we can provide sufficient 
assistance quickly enough we can prevent the worst impacts.
    And on the democracy side, we don't request our funding 
through the fund.
    Ms. Bass. Okay.
    Ms. Smith. But I am pleased to let you know that the 
request for Fiscal Year 2017 has increased to $2.3 billion 
through USAID-managed funds.
    Ms. Bass. So you don't think there is any additional 
reforms that are needed with food aid? You think what you have 
now is okay?
    Ms. Smith. What we are looking for now is that 25 percent 
that is in the Fiscal Year 2017.
    Ms. Bass. And any request for AWEP, the African Women's 
Entrepreneur Program?
    Ms. Smith. That is managed by the State Department. We work 
very closely----
    Ms. Bass. Okay.
    Ms. Smith [continuing]. With them and support African women 
entrepreneurs through our trade hubs.
    Ms. Bass. Thank you very much.
    Mr. Chabot. The gentlelady's time has expired.
    The gentleman from Pennsylvania, Mr. Perry, is recognized 
for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Madam Administrator, hi, good morning. Just let me start 
off by saying I have had the privilege of working with some of 
your field agents down range, as military folks call it, and 
they have been nothing but professional and a pleasure to work 
with.
    I do have a question, however, regarding the West Bank and 
that foreign assistance through your organization, as I 
understand it, exceeds $363 million for Fiscal Year 2017. This 
is moving away from the $80 million, $80 million reduction from 
last year. To date, Palestinians have received nearly $5 
billion in assistance from the United States, which is more aid 
per capita, according to the figures I have, than any other 
people.
    I am just curious about how you use the power of that 
financial influx into the PA to kind of influence the 
Palestinian Authority when, you know, when President Abbas 
makes a statement claiming that the recent stabbing attacks in 
Israel represent a popular peaceful uprising? And while in 
2014, 81 percent of Palestinians believed that there was 
corruption in the Palestinian Authority, and as well an EU 
audit showed that the PA mismanaged over $3 billion from 2009 
to 2013.
    So taxpayers are working hard and they are paying their 
taxes and we are sending money to the PA, who then is alleged 
to--and I don't know if this is proven, I think it is, but I 
will just say ``alleged'' for these purposes--to pay a stipend. 
When individuals carry out and conduct a terrorist attack and 
end up in prison, then their family gets a stipend for that. 
And the more horrific the act, the higher the stipend.
    How do we, as a Federal Government, leverage the money we 
spend, a fantastic amount here, $363 million--maybe not much in 
the scope of the trillions of dollars that we budget annually 
and spend--but how do we leverage that to minimize these 
horrific acts and get a good value out of the taxpayer dollar?
    Ms. Smith. Thank you for your question and for your kind 
comments about our people. I would agree with you: They are 
nothing but terrific.
    USAID's role in these environments, and this is a tough 
one, is to try to build the capacity of fundamental governments 
so that the needs of people are served. In this environment we 
work through partners. We do not simply hand over the money. We 
vet, we audit, and we track it very closely.
    The assistance is targeted at things like delivering basic 
services: Clean, potable water for citizens, basic education, 
and things that will make a difference--we hope a positive 
difference--in the lives of, particularly, young Palestinians.
    In terms of leverage, I think there are two things. One, 
that presence and engagement enables our State Department to 
undertake its diplomatic efforts. I think on our side as USAID, 
it allows for engagement with people, and again particularly 
young people, to try to encourage something different, quite 
frankly, than what we have seen.
    We track very closely all of our assistance, as I say. 
Corruption concerns are absolutely worthy of consideration. But 
I think it is our view that this kind of engagement is 
critically important to building capacities that are needed, 
but also to ensure engagement with the Palestinian people, and 
particularly young people.
    Mr. Perry. I would agree with those things: The 
infrastructure, the engagement. I think those are good things. 
But money being fungible, do you get the sense that to a 
certain extent while American citizens and taxpayers are 
helping to pay for infrastructure and better governance, that 
is the money that the PA has other places that could be used 
for that, instead they use it to build tunnels into Israel and 
support their other nefarious activities. And how do you 
balance that and how do you, again, how do you leverage that?
    I mean the things that you said are very aspirational and 
they are great. But at the same time, the taxpayer in my 
district sees us funding many times terrorism, and people that 
hate America, hate Israel, our ally, and hate the West and are 
committed to the destruction of those things, and we will help 
them pay for it. What do I say to them?
    Ms. Smith. I think that is a fair question. I think the 
first thing you can say to them with confidence is we do not 
fund terrorists. We will closely track our assistance to ensure 
that at an individual or any other level that does not happen.
    I think it is a matter of policy, and we work under the 
auspices of our foreign policy. There is a decision and a view, 
again, that there is a need to build that fundamental capacity 
on the ground. And as I say, I think our State Department is 
able to use that engagement and our presence in what we do as 
USAID to press the Palestinian Authorities to move in a 
different direction.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you.
    The gentleman from Massachusetts, Mr. Keating, is 
recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. And thank you for 
your service; it is truly appreciated. And I speak not just of 
you, but everyone that works with you.
    You have heard some this morning talk about the fact that 
you don't support developmental aid. And I think you have heard 
a shared concern of many of us, including myself, about 
taxpayers making sure their money is well spent. So my belief 
is that--and I wish in a way there was another term besides 
``developmental aid,'' because I don't think it really catches 
what it truly is--I think that indeed putting money into that, 
that, those resources, will put the fires out before they occur 
and they, as a result, will help taxpayers get the most of 
their money.
    Could you give us some examples of how that is indeed the 
case, just so I think the public listening, in particular, will 
become more aware of this? How putting resources into that is 
cost-effective and will put those fires out before they occur?
    Ms. Smith. Thank you. I think you are absolutely right that 
part of what we are doing is making an investment in the 
future. I think perhaps the best example of that right now is 
Colombia, where 15 years of sustained support and engagement 
has yielded something that I think people thought was not 
possible: The reductions in crime, coming out of a recession, 
the possibility of peace, and, I believe, the happiest country 
on the planet. Again, I think we can point to a dramatic change 
there.
    I think we can also point to some other changes that make a 
difference. It was said at the opening of this hearing that 
countries need to foot more of the bill themselves. We are 
starting to see that, particularly in the areas including 
health and agriculture, where countries with whom we work who, 
over time, have increased their own expenditures, and we have 
been able to reduce ours.
    I think the third area where we can show the impact is in 
areas like global health where we are the world's leader. 
Whether it is putting us on the road to end the HIV/AIDS 
epidemic, which I think we all know would have been profoundly 
destabilizing, to improving the lives of mothers and children 
so that you have less poverty and the kind of instability it 
can breed.
    The good news is we have the data and the evidence, both at 
USAID and also at the MCC, to make that case to the American 
people.
    Ms. Hyde. I would just add in Africa, as an example, Cote 
d'Ivoire, is a country that a decade ago was in the throes of a 
violent civil war, and the story of Cote d'Ivoire for MCC is 
that 3 years ago they were passing only 5 of 20 indicators. 
They came to us, they said, we want a compact. We want to get 
better.
    Fast forward to 3 years later, they changed their laws and 
they are now an MCC compact country. That said, there is still 
instability, as you well know, and recent events will say in 
that region. And we need to stay engaged and vigilant in a very 
accountable system so that these countries that are trying to 
do the right thing are able to stay afloat.
    Mr. Keating. And I also just want to point out an area of 
concern that I have looking forward along those lines, 
particularly in terms of being an incubator for terrorist 
activity and for extremism, and that is in Central Asia. I am 
concerned as I look at the inability of people to get work, the 
economy in Russia, people migrating out of there. This area, 
the North Caucasus area, those areas are ripe for this.
    Are there things we can do in that area that, or can you 
think of that as something in the future that could be 
addressed in terms of that potential instability? Well, it is 
not potential, it is unstable.
    Ms. Smith. Yeah, I can speak to that. There are a number of 
parts of the world where I think we see that combination of 
things: A youth bulge, heavy unemployment, and lack of access 
to opportunity. Much of our work goes to that across the board. 
A lot of our specific work, and there is an increase in our 
request for countering violent extremism, which is targeted at 
getting to some of the root causes of the kinds of threats to 
which you speak.
    One of the things that USAID is able to contribute to this 
is very sharp analysis of what exactly are the drivers and 
where can we make the investments that will yield results.
    But that is one of the many areas that we are looking at.
    Mr. Keating. And my time is limited so I probably will go 
in writing with this question. But I am curious, and we will do 
this in writing because I am sensitive to my colleagues' time, 
about the gender policy issues and USAID's gender policy and 
the success for that. Because again----
    Ms. Smith. Right.
    Mr. Keating [continuing]. It is an area I believe investing 
in those issues will really be serving the taxpayers well and 
preventing things from occurring in the future. So again, thank 
you. And I yield back.
    Mr. Chabot. The gentleman yields back.
    Ms. Smith. Happy to respond in writing.
    Mr. Chabot. Thank you.
    The gentleman's time has expired.
    The gentleman from Rhode Island, Mr. Cicilline, is 
recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony, for your extraordinary 
leadership, and for the work of your colleagues that they do 
every day to continue to enhance our security and the stability 
of the world.
    And I really want to echo Mr. Keating's point that 
development assistance is not a gift but it is a strategic 
investment in our national security and our health and economic 
well-being and, obviously, very important.
    There are three areas that I wanted to submit questions on. 
One relates to the 20-year decline in the personnel of USAID 
and the status of the USAID's board, as well as the Development 
Leadership Initiative, how do you see that moving forward?
    Also, there has been a terrific initiative, the 
International Aid Transparency Initiative so that taxpayers can 
be sure that there is a good return on their investment and the 
impact it is making and the status of that, as well as your 
view about the importance of continuing to support Nogorno-
Karabakh and how you see that going forward in light of the 
news that exists, as Mr. Sherman mentioned.
    So I would like to give you an opportunity to provide some 
more detailed information. But I am going to ask three 
questions today and just give you whatever time is left to 
answer them.
    As you well know, USAID has done important work in 
responding to the very serious challenges facing LGBT 
individuals around the world where we are seeing increased 
criminalization and grave danger very often to members of our 
community. The Special Coordinator for LGBT Rights Todd Larson 
is doing a terrific job. And so I would like you to just give a 
little bit about how you see that role continuing, where you 
are seeing some success? What are areas of particular concern?
    Secondly, in the area of global health, USAID as you know 
plays a critical role to foster innovation in health 
technologies working across its programs, with many diverse 
partners, with other U.S. agencies to advance new vaccines, 
drugs, diagnostics, and other tools urgently needed to combat 
existing and emerging global health threats. And I would love 
to hear your thoughts on how USAID will continue this role, and 
particularly how it is working to encourage a coordinated, 
government-wide approach to global health research and 
development.
    And on the side for MCC, of which you know I am a huge fan, 
thank you for your great work. Would you talk a little bit 
about the challenges that MCC faces in implementing compacts in 
fragile states like Liberia and Cote d'Ivoire and how the 
agency is really prepared to address that?
    And, of course, I am always interested to know how Cape 
Verde is doing in its second compact, particularly in the areas 
of legal institution foundations and rights, how they are 
meeting those roles?
    So I will stop and give you as much time as I have 
remaining for your answers.
    Ms. Smith. Thank you. I agree; Todd is doing and has done a 
terrific job. I think both he and his office. But the fact that 
we now have points of contact in every single bureau in the 
agency on the issue of our LGBT community. And I think we have 
made important progress. We and some other donors are putting 
this issue on the map and ensuring that governments protect the 
rights of all of their citizens and prevent and protect them 
against discrimination.
    What we are looking at now is how do we ensure that this 
remains part of the agency's work going forward, both through 
maintaining a coordinator position, but looking again at how we 
can institutionalize it across the board, including in the 
field and with our partners.
    I have also had the privilege and opportunity to speak to 
several other donors who have been leaders in this area. We are 
of the same view that we need to find ways, not only to expand 
our work, but ensure that it is continued by those who may 
succeed us.
    On global health coordination, that is something I work on 
now and worked on in the past, including with Dana in an 
earlier life, in the specific area of research and development 
of new diagnostics and vaccines and other things. On 
coordination, we work closely with the CDC and NIH. They play 
huge and tremendous roles there in making sure that there is no 
duplication or overlap. We also work with them to make sure 
that even as they are developing new opportunities, we are 
looking at how these can be deployed, whether through GAVI--
which I think you may know, the Global Vaccine Alliance--or our 
own programs.
    Mr. Cicilline. Thank you.
    Ms. Hyde. Very quickly. So with respect to Cape Verde, we 
are on time, under budget, and closing out next year. All of 
the reforms are going forward. In fact, the executive director 
was just in town this week, and it is going very well. So I 
have every reason to believe we will be set up for success 
there. The engagement of the government and our partners has 
been extraordinary.
    With respect to fragile states, the MCC is working in the 
fragile states within the scorecard of the governance criteria. 
That is, by definition, a fragile state that is striving to be 
among the better half in terms of rule of law, and corruption. 
So I think it is absolutely critical that MCC be there and be 
supportive of it.
    That said, the capacity challenges certainly are there in 
terms of our model, in terms of the data that is needed for 
cost-benefit analysis. Data is a challenge everywhere; we see 
it particularly so. We are working through our partners, the 
MCA units. So that is in country. And looking at how we deploy 
more support there.
    Our accountability measures are very strong. As you know, 
the funds sit in the U.S. Treasury and we have independent 
fiscal agents, independent procurement agents. But we are 
really looking at how we can partner.
    I will give you an example with Niger this year coming 
forward, we will be partnering in the Community-based Livestock 
Program as well as large-scale irrigation infrastructure, the 
types of things we will be doing there.
    Mr. Cicilline. Okay, thank you so much.
    I yield back, Mr. Chairman.
    Mr. Chabot. The gentleman's time has expired.
    Batting clean-up, last but certainly not least, the 
gentlelady from Florida, Ms. Frankel, is recognized for 5 
minutes.
    Ms. Frankel. Thank you, Mr. Chair. I often feel like I am 
in that Agatha Christie novel, ``And Then There Were None,'' I 
mean. Anyway, I thank both of you for your service.
    I really have two different questions. I hope you can get 
to them both. The first has to do with Syria. I would like to 
have an overview of your major efforts in the humanitarian 
crisis in Syria, and whether or not you see any hope or 
possibility that when the violence is over--whenever that might 
be--that they could get back to a normal society?
    My second question, it is a little different, and has to do 
with women, girls' education. And if you could give me, I would 
like to know, you know, sort of an overview of what you are 
doing, and especially who is doing the teaching and what kind 
of materials are you using and what is your follow-up to see 
the efficacy of it?
    Ms. Smith. Thank you, Congresswoman. And with regard to 
Syria, this has been a very big piece of USAID's work for over 
4 years. Of the assistance that we provide, about half of that 
goes inside Syria to help people where they live all across the 
country, and about half of that goes to people who are 
refugees.
    There is a small--I do not want to overstate it--but a 
small and significant glimmer of hope, given the hard work of 
Secretary Kerry, on a humanitarian cessation of hostilities 
which is allowing us to get some more assistance to what are 
called ``besieged areas.'' Again, it is not a complete end of 
the war but it is significantly very grateful for his work on 
that.
    As to your question about when the violence ends will they 
be able to return to normalcy, one of the things USAID has a 
great deal of experience in over the last many, many decades is 
working in transitions of countries out of civil war and 
violence, or from authoritarianism to democracy. It takes a 
long time. We know a lot about it. I think the agency is quite 
good at it and has learned enough over the years to enable us 
to marshal a plan or design to help Syria return to normalcy 
and peace. I think it is possible. We have seen other countries 
do it. But I also think it is going to take a very, very, very 
long time.
    On girls' education I will speak to that. And I----
    Ms. Frankel. Just something back to Syria though.
    Ms. Smith. Yes.
    Ms. Frankel. What are the--I know you do food and you are 
doing health. What else?
    Ms. Smith. Yes.
    Ms. Frankel. Education? What are the pieces of your aid in 
Syria now?
    Ms. Smith. We provide food assistance. We also provide 
health assistance. Some education, including emergency learning 
centers and also some education for refugees. So our assistance 
is diversified.
    Ms. Frankel. Housing? Do you do house?
    Ms. Smith. Some temporary shelter. It is very difficult for 
people to find. Often they are seeking refuge in school 
buildings that have been abandoned, winterization during the 
colder months so that people can keep themselves and their 
families warm.
    We try to provide as diverse an array of assistance as we 
possibly can, given the enormity of the needs.
    On girls' education, that is a big priority for us. The way 
that works is we work with partners, most often Ministries of 
Education, both in ways to provide direct assistance, but also 
to do things like teacher training, like curriculum 
development, and an emphasis on--I am glad you made the comment 
about ensuring that it works--an emphasis on quality.
    One of the things USAID did a few years ago--we are now at 
the end of a 5-year strategy--was revise the education strategy 
so that we could make sure that quality was as high on the list 
as quantity, and that we were making sure that students, 
including girls, are able to read. They didn't just go through 
primary education but departed primary education with the 
ability to read. Thus far we have reached 30 million students 
with that program.
    Ms. Frankel. Okay, let me, okay, Ms. Hyde, why don't you.
    Ms. Hyde. I will keep this short.
    Ms. Frankel. Yes, please.
    Ms. Hyde. MCC typically is working in the secondary or 
vocational space, so very rarely in primary education. We are 
doing so in countries where it is identified as a key 
constraint to growth. About a third of our constraints analyses 
identify human skills. If a country wants an education program, 
we will be looking to see how we have a nexus to jobs and to 
markets and in vocational.
    Morocco is an example I would give as a recent compact with 
a large investment, always with a focus on girls and gender. We 
know that if the economics are there that girls will stay in 
school, that they will provide for communities, and that there 
is actual evidence tagging education to growth with completion 
rates, which I think the World Bank just came out with.
    Mr. Chabot. Thank you. The gentlelady's time has expired.
    I would like to thank the witnesses for appearing here this 
morning. We covered a lot of important issues.
    And if there is no further business to come before the 
committee, we are adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                   
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
